March 29, 2013

The Honorable Henry A. Waxman                 The Honorable Sheldon Whitehouse
Co-Chair                                      Co-Chair
Bicameral Task Force on Climate Change        Bicameral Task Force on Climate Change
Ranking Member                                Chairman
Committee on Energy and Commerce              Subcommittee on Oversight
2322A Rayburn House Office Building           410 Dirksen Senate Office Building
Washington, DC 20515                          Washington, DC 20510

The Honorable Edward J. Markey                The Honorable Benjamin L. Cardin
Co-Chair                                      Co-Chair
Bicameral Task Force on Climate Change        Bicameral Task Force on Climate Change
Ranking Member                                Chairman
Committee on Natural Resources                Subcommittee on Water and Wildlife
1329 Longworth House Office Building          410 Dirksen Senate Office Building
Washington, DC 20515                          Washington, DC 20510

Dear Chairmen Waxman, Whitehouse, Markey, and Cardin:

Thank you for your February 25, 2013 letter requesting that the Government Printing
Office (GPO) Office of Inspector General (OIG), as the first part of your request, identify
the existing requirements in legislation, regulation, executive order, and other directives
that apply to the GPO, assess whether GPO is meeting these requirements, and if GPO
is not fully meeting the requirements, make recommendations for improving its
performance.

To address this part of your request, we asked GPO to identify existing requirements to
address climate change and also asked GPO what accomplishments have been
achieved in relation to these requirements.

GPO responded that management has articulated a vision for sustainable
environmental stewardship. GPO reported its vision supplements longstanding
environmental practices at GPO, including the use of printing papers that meet the
requirements for recycled content contained in the Resource Conservation and
Recovery Act of 1989, as amended, and corresponding Executive Orders (EO); the use
of printing inks that comply with the requirements of the Vegetable Ink Printing Act of
1994; and working with the Environmental Protection Agency and the District of
Columbia to meet the standards for emissions of volatile organic compounds (VOC' s).
GPO reported it recognizes the importance of EO 13514,”Federal Leadership in
Environmental, Energy, and Economic Performance.”
In October 2012, GPO obtained certification as a sustainable green printer from the
Sustainable Green Printing Partnership (SGP). SGP is a non-profit independent third
party organization that certifies sustainability in the graphic communications industry.
Last year GPO was the only facility in government to receive the certification for
sustainable green printing.

Over the years, GPO reported it has realized many of its environmental goals including
the use of more environmentally friendly paper, enhancing the efficiency of fleet
operations, installation of a highly reflective roofing system, reduction of both solid and
hazardous waste, and a reduction in VOC's. During the last ten years, VOC emissions
were reduced by about 50 percent. In FY 2012, VOC emissions were down 28 percent
compared to FY 2011.

GPO provided us with the following information in support of its accomplishments:

•   Reduced the use of fossil fuels in its GPO fleet by replacing 22 vehicles with
    alternative fuel vehicles and reduced the fleet from 38 to 25 vehicles in Fiscal Years
    (FY) 2009 and 2010.

•   Reduced energy intensity by 15.6 percent between FY 2008 and 2012 by upgrading
    to variable frequency drive motors and variable air volume technology for air-
    handling units. Also, began using higher voltage systems to minimize transmission
    by transitioning from a 208 volt system to new equipment that operates at 480 volts,
    and is introducing 480 volt substations to provide higher voltage output.

•   Improved water use and efficiency by upgrading fixtures, modifying piping and
    activating a recycle loop between GPO and Capitol Power Corporation to return
    280,000 gallons of industrial water annually from GPO to Capitol Power Corporation
    for reuse in steam generation. GPO initiated a fire suppression system sprinkler
    head replacement program in which GPO replaced approximately 200 valves and
    upgraded/insulated 2,000 feet of piping over the past four years to repair leaking
    components, or mismatched interfaces undergoing galvanic degradation. GPO
    installed low-flow upgrade fixtures in its restroom and eliminated fixtures in some
    restrooms. Of the fixtures that have been assessed, 90 percent were replaced with
    low-flow upgrades, and 10 percent were eliminated. GPO installed a new cooling
    tower as part of a chiller plant project in FY2002, and upgraded the fill in a second
    cooling project in FY 2007. GPO installed a self-metering pumped chemical system
    in the cooling tower that reduced the amount of chemical additive used and almost
    eliminated scale buildup on the cooling towers, leading to more efficient heat transfer
    and less water waste.

•   Improved pollution prevention and waste elimination by recycling all the waste paper
    generated and other products such as pallets, waste wood, aluminum, copper,
    brass, steel, motor oil, vacuum pump oil, synthetic oil, other lubricating oil, and
    grease. GPO uses all of the post-consumer fibers for printing the Federal Register
    and Congressional Record which are GPO’s largest printing jobs. GPO looks for
    inks made with renewable sources of raw materials and always meets or exceeds
    the minimum requirements in the Vegetable Ink Printing Act. GPO has asked ink
    suppliers to minimize the use of fish oil in the products it purchases. GPO uses low
    VOC fountain solution on the presses and installed a solvent recovery system which
    allows recycling of used blanket wash. GPO installed a pH control system in the
    pre-press area to prevent water pollution due to high pH levels. The pH control
    system ensures that all waste water from the area is properly neutralized before it
    enters the sewer.

•   Sustained design, construction, and operations by replacing the roof with 83,000
    square feet of highly reflective surface on the three of its largest buildings (roughly
    47 percent) at the main GPO facilities since FY 2009. GPO reused old surface and
    ballast as construction backfill, which amounts to approximately 1.1 million pounds
    of recycled rock.

While GPO has reported significant accomplishments, our analysis of the goals outlined
in EO 13514 disclosed GPO could further develop a plan to fully address greenhouse
gas emissions reduction goals, water conservation goals, pollution prevention and
waste elimination goals, high performance building goals, and sustainable acquisition
practice goals. In part, EO 13514 requires federal agencies establish a percentage
reduction target for agency-wide reduction of greenhouse gas emissions by FY 2020
(relative to a FY 2008 baseline), reduce potable water consumption intensity by 2
percent annually through FY 2020 relative to a FY 2007 base year (for 26 percent total
reduction), reduce industrial, landscaping, and agricultural water consumption by 2
percent annually through FY 2020 relative to a FY 2010 base year (for 20 percent total
reduction), and divert at least 50 percent of non-hazardous solid waste and at least 50
percent of construction and demolition materials and debris from landfills to recycling or
recovery operations.

You also asked that we assess the authorities the GPO has to reduce emissions of
heat-trapping pollution, GPO’s authorities to make the nation more resilient to the
effects of climate change, and the most effective additional steps GPO could take to
reduce emissions or strengthen resiliency. We could not identify any authorities the
GPO has related to these requests.

We continue to work closely with managers at GPO and note that Senior Managers are
actively engaged in working with the OIG to improve operations and maintain a long-
standing record in delivering a world-class service to our Nation. If you have any
questions or need further information, please contact me at (202) 512‐0039.

Sincerely,



Michael A. Raponi
Inspector General
